No. 20-245
CERTIFICATE OF COMPLIANCE
PATRICIA NELSON, Next friend of N.K., a minor, Petitioner
v.
ESTEBAN RIVERA, Respondent.
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 2,786 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 8, 2021.
/s/ Christopher J. Trainor
Attorney for Petititoner

